GR-50-98-027
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES 
GRANT TO THE OXFORD, MICHIGAN EMERGENCY SAFETY AUTHORITY 
 
Grant Number 95-CF-WX-5229
Audit Report Number GR-50-98-027
September 10, 1998
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of funds
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the Oxford Emergency Safety Authority (OESA). OESA received a grant in
the amount of $75,000 under the Funding Accelerated for Smaller Towns (FAST) program and
two supplemental awards totaling $473,028 under the Universal Hiring program (UHP). The
purpose of these grants is to enhance community policing by allowing OESA to hire an
additional five full-time and six part-time sworn law enforcement officers. OESA was also
awarded a grant under the Making Officer Redeployment Effective (MORE) Program in the
amount of $46,875 to purchase a equipment. As of July 2, 1998, OESA had not requested
funding under the COPS MORE grant. However, OESA intends to request funding once the
purchased system has been implemented. 




Our audit disclosed that OESA:


 Supplanted local funds with federal funds by not backfilling vacated part-time
    positions. Therefore, we are questioning $167,869 as unallowable costs. 
 Charged $10,051 in unallowable salary and fringe benefit expenses to the grant.
 Failed to meet the grant objective by not maintaining the locally required
    staffing level resulting in $370,108 to be put to better use.




 Failed to provide a redeployment plan within the required timeframe resulting in
    $46,875 to be put to better use.
 Did not deploy a number of officers into community policing equal to the number
    of officers funded under the grant.


#####